GR-80-98-017
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Rural Domestic Violence and Child Victimization Enforcement Program
Bismarck, North Dakota
Grant No. 96-WR-NX-0016
GR-80-98-017
May 5, 1998
  

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
Rural Domestic Violence and Child Victimization Enforcement Program, Grant
No. 96-WR-NX-0016, administered by the North Dakota Council on Abused Women's
Services (Council), for the period October 1, 1996, through March 31, 1998. The $629,119
grant, awarded by the Office of Justice Programs (OJP), is effective from October 1, 1996,
through March 31, 1998. However, an extension to October 31, 1998 had been requested as of
the date of our field work.
Our audit disclosed weaknesses in the Council's compliance with the grant award. In
addition, personnel costs were not prorated among the various grants administered by the
Council. The weaknesses are described in detail in the Findings and Recommendations
section of this report. The Findings and Recommendations address the following areas:


- Procedures had not been established to review subrecipients' annual audit reports. 
- Health care costs, which were not included in the grant application, were paid from
    grant funds.
- The Council had not established a method for allocating personnel costs to the
    various grants administered. 


 
#####